FEC -- Limited Scope Building Security Review
Federal Election Commission
Office of Inspector General -- Special Review Report
Limited Scope Building Security Review
June 13, 2002
If you require the printed version of this report, contact
the Office of Inspector General, Federal Election Commission, 999 E Street, NW,
Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202)
694-1015, fax: (202) 501-8134, or e-mail: oig@fec.gov.
Summary
The Office of Inspector General (OIG) completed a
limited scope building security review. The review focused on two specific areas: (1)
assess the effectiveness of the Federal Election Commissions (FEC) closed circuit
television (CCTV) security system; and (2) provide suggestions to improve overall building
security, if warranted.
The limited scope building security review
was initiated for two reasons. First, the Federal government has placed a greater
importance on securing Federal facilities due to domestic and international acts of
terrorism that have occurred in recent years. Second, the theft of the Data Systems
Division Directors laptop computer in January 2002 gave rise to concern over the
adequacy of the FECs building security. The laptop theft occurred during the
business day and was perpetrated by an unknown individual while FEC staff worked in
offices in the direct vicinity of the theft.